                                  NCUA 2012
                          FINANCIAL STATEMENT AUDIT
                                     FOR
                       TEMPORARY CORPORATE CREDIT UNION
                             STABILIZATION FUND




                    For the year ended December 31, 2012

         Audited Financial Statements                 Audit Report Number

Temporary Corporate Credit Union Stabilization Fund        OIG-13-06


                                  March 27, 2013




                                William A. DeSarno
                                Inspector General
                                     EXECUTIVE SUMMARY

PURPOSE AND SCOPE            This report transmits KPMG LLP’s (KPMG) report
                             on its financial statement audit of the National Credit
Union Administration’s (NCUA) financial statements for the Temporary Corporate
Credit Union Stabilization Fund for the years ending December 31, 2012 and
2011. The NCUA prepared financial statements in accordance with the Office of
Management and Budget (OMB) Circular No. A-136, Financial Reporting
Requirements, and subjected them to audit.

                                 Under a contract monitored by the NCUA OIG,
AUDIT REPORT ON
                                 KPMG, an independent certified public
FINANCIAL STATEMENTS,
                                 accounting firm, performed an audit of the
INTERNAL CONTROL, AND
                                 NCUA’s financial statements as of December
COMPLIANCE AND OTHER
                                 31, 2012. The contract required that the audit
MATTERS
                                 be performed in accordance with generally
accepted government auditing standards issued by the Comptroller General of
the United States; Office of Management and Budget audit guidance, and the
Government Accountability Office/President's Council on Integrity and Efficiency
Financial Audit Manual.

KPMG’s audit report for 2012 includes: (1) an opinion on the financial
statements, (2) conclusions on internal control over financial reporting, and (3) a
section addressing compliance and other matters. In its audit of the NCUA,
KPMG found:

     •    The financial statements were fairly presented, in all material respects, in
          conformity with U.S. generally accepted accounting principles,

     •    There were no material weaknesses in internal controls, 1

     •    There were no significant deficiencies to internal controls. 2

     •    No instances of reportable noncompliance with laws and regulations it
          tested or other matters that are required to be reported under
          Government Auditing Standards or OMB guidance.




1
  A material weakness is defined as a deficiency, or combination of deficiencies, in internal control, such that
there is a reasonable possibility that a material misstatement of the entity’s financial statements will not be
prevented, or detected and corrected on a timely basis.
2
  A significant deficiency is defined as a deficiency, or a combination of deficiencies, in internal control that is
less severe than a material weakness, yet important enough to merit attention by those charged with
governance.
OIG EVALUATION           To ensure the quality of the audit work performed, we
OF KPMG’S AUDIT          reviewed KPMG’s approach and planning of the audit,
PERFORMANCE              evaluated the qualifications and independence of the
                         auditors, monitored the progress of the audit at key
points, and reviewed and accepted KPMG’s reports and related documentation
and inquired of its representatives. Our review, as differentiated from an audit in
accordance with U.S. generally accepted government auditing standards, was
not intended to enable us to express, and we do not express, opinions on
NCUA’s financial statements or conclusions about the effectiveness of internal
control or conclusions on compliance with laws and regulations. KPMG is
responsible for the attached auditor’s reports dated March 27, 2013 and the
conclusions expressed in the reports. However, our review disclosed no
instances where KPMG did not comply, in all material respects, with generally
accepted government auditing standards.

This report is only on the Temporary Corporate Credit Union Stabilization Fund
for the year ended December 31, 2012. The report for the NCUA Operating
Fund, the Share Insurance Fund, the Central Liquidity Facility and the
Community Development Revolving Loan Fund were issued on February 15,
2013 and can be found on the NCUA OIG’s website.

We would like to extend our thanks to NCUA management and staff involved in
issuing the financial statement within the established milestones. In addition, we
appreciate the professionalism, courtesies, and cooperation extended to KPMG
throughout the audit and our oversight of the audit process.
Report # OIG-13-06
National Credit Union Administration
Temporary Corporate Credit Union
Stabilization Fund
Financial Statements as of and for the Years Ended
December 31, 2012 and 2011, and
Independent Auditors’ Report
NATIONAL CREDIT UNION ADMINISTRATION
TEMPORARY CORPORATE CREDIT UNION STABILIZATION FUND

TABLE OF CONTENTS




                                                       Page


OVERVIEW                                                 1

INDEPENDENT AUDITORS’ REPORT ON FINANCIAL STATEMENTS     8

FINANCIAL STATEMENTS AS OF AND FOR THE YEARS ENDED
DECEMBER 31, 2012 AND 2011:


Balance Sheets                                           11

Statements of Net Cost                                   12

Statements of Changes in Net Position                    13

Statements of Budgetary Resources                        14

Notes to the Financial Statements                        15

     
Overview
I. Mission, Background and Organizational Structure

TCCUSF Mission and Background

The National Credit Union Administration (NCUA) administers the Temporary Corporate Credit Union
Stabilization Fund1 (TCCUSF). Congress established the TCCUSF in May 2009 as a revolving fund in
the Treasury of the United States (U.S. Treasury) under the management of the NCUA Board. The
TCCUSF is planned to close in June 2021.

The TCCUSF accrues the losses of the corporate credit union system and, over time, assesses the credit
union system for the recovery of such losses. References to credit unions or credit union system refer
only to those credit unions that are federally insured.

Acting under authority granted by Congress under the Helping Families Save Their Homes Act of 2009,
the NCUA Board took action to provide significant relief to insured credit unions in dealing with
assessments related to corporate credit union stabilization actions while maintaining a safe and strong
National Credit Union Share Insurance Fund2 (NCUSIF). With the failures of several large corporate
credit unions in 2009, the TCCUSF provided an opportunity to mitigate the one-time assessment burden
on federally insured credit unions for corporate credit union stabilization actions. While it has recognized
the corporate credit union stabilization costs under the TCCUSF, the NCUA Board, at its discretion,
determines if, and when, to assess premiums over the life of the TCCUSF. The total special premium
assessments to federally insured credit unions over the life of the TCCUSF are currently estimated to
range from $5.7 billion to $8.0 billion. Through 2012, special premium assessments totaled $4.1 billion.

On September 24, 2010, the NCUA Board announced the Corporate System Resolution Program (CSRP).
The CSRP is a multi-stage plan for stabilizing the corporate credit union system, providing short-term and
long-term funding to resolve a portfolio of residential mortgage-backed securities (RMBS), commercial
mortgage-backed securities (CMBS), other asset-backed securities (ABS) and corporate bonds
(collectively referred to as the Legacy Assets) held by the failed corporate credit unions, and establishing
a new regulatory framework for corporate credit unions. Under the CSRP, the NCUA created a re-
securitization program (NGN Program) to provide long-term funding for the Legacy Assets through the
issuance of the NCUA Guaranteed Notes (NGNs) by trusts established for this purpose (NGN Trusts).
The NGNs are guaranteed by the NCUA, and backed by the full faith and credit of the United States
Government.

The Legacy Assets from failed corporate credit unions consisted of over 2,000 investment securities,
secured by approximately 1.6 million residential mortgages, as well as commercial mortgages and other
assets. With the issuances of NGNs, the NCUA transferred the associated Legacy Assets into the
respective NGN Trusts.

As part of the CSRP, the NCUA Board liquidated five corporate credit unions during 2010. The assets
and liabilities of the liquidated corporate credit unions were placed into asset management estates,
administered by the NCUA Board as the liquidating agent, through its Asset Management and Assistance
Center (AMAC), pursuant to applicable provisions of the Federal Credit Union Act (FCU Act). To
facilitate the resolution process, the NCUA Board chartered four bridge corporate credit unions (Bridge
Corporates) to purchase certain assets and assume certain liabilities and member shares from the asset
1
   The TCCUSF is one of five funds established in the U.S. Treasury and administered by the NCUA Board. In addition to the TCCUSF, a
temporary fund, NCUA administers four permanent funds to include the National Credit Union Share Insurance Fund, the Operating
Fund, the Central Liquidity Facility and the Community Development Revolving Loan Fund. All five funds report under separate
financial statements.
2
   NCUSIF insures members’ accounts in insured credit unions up to the standard maximum share insurance amount.

                                                                 1
management estates. To the extent that the liabilities and shares assumed exceeded the assets purchased
by the Bridge Corporates, the asset management estates issued promissory notes (Promissory Notes) to
the Bridge Corporates for the difference. Each Promissory Note was guaranteed by the NCUA and was
primarily funded by the TCCUSF.

During 2011, the NCUA repaid the outstanding Promissory Notes and approved the mergers of two
Bridge Corporates.

In 2012, the NCUA Board completed the CSRP with the closing of remaining two Bridge Corporates.
The TCCUSF continues to provide funding necessary for the continuation of the NGN Program through
2021 and for AMAC to complete the wind down of the corporate credit union asset management estates.

Organizational Structure

The NCUA Board authorized staff to establish the corporate governance structure of the TCCUSF. The
NCUA Board delegated operational oversight and provided authority to staff to borrow funds, invest and
approve assistance to corporate credit unions subject to limitations.

The NCUA Board created the NGN Securities Management and Oversight Committee to ensure that
NCUA meets all its statutory and legal obligations under the NGN Program. The Directors of the Office
of Examination & Insurance, AMAC and the Office of the Chief Financial Officer comprise the
committee.

The Director of Examination & Insurance serves as the Chair of the NGN Securities Management and
Oversight Committee and other NCUA offices provide operational and administrative services to the
TCCUSF. AMAC administers the asset management estates, collects obligations due to the closed
corporate credit unions, monetizes assets and distributes amounts to claimants, including the TCCUSF, in
accordance to their respective regulatory pay-out priorities.

II. Performance Goals, Objectives and Results

The focus of NCUA’s efforts in supervising corporate credit unions is to ensure their ongoing safety and
soundness as well as their continued ability to provide uninterrupted services to the consumer credit
unions that they serve.

NCUA’s mission, as outlined in the NCUA 2011-2014 Strategic Plan, is to “provide through regulation
and supervision a safe and sound credit union system which promotes confidence in the national system
of cooperative credit.” NCUA’s annual objectives related to corporate credit unions in 2012 are to:

       continue to stabilize the corporate credit union system;
       ensure the transition of consumer credit unions from the Bridge Corporates without disruption of
        member services; and
       improve the transparency of the NGN Program.

NCUA has successfully met these goals. By the end of 2012, NCUA had successfully completed its
efforts to stabilize, resolve and reform the corporate credit union system. Corporate credit unions
maintained sufficient liquidity to meet member needs and maintained adequate capital to meet the
NCUA’s Prompt Corrective Action requirements. The last two Bridge Corporates were closed during
2012 with no disruption of member services.

Operational success in meeting the goals of NCUA’s Strategic Plan to “promote confidence in the
national system of cooperative credit” is further evidenced by the ongoing stability of the TCCUSF. In
2012 and 2011, the TCCUSF maintained sufficient liquidity to meet its obligations. During the same
period, the TCCUSF’s deficit, as represented by the negative Net Position of the TCCUSF, continued to
                                                         2
decline consistent with the design of the TCCUSF. In 2012, the deficit in Net Position decreased by $1.8
billion, to $3.5 billion. Substantially all of this change is explained by both the $792.5 million in special
premium assessments collected from insured credit unions and by a $806.5 million reduction in estimated
insurance losses, the majority of which was related to the change in the projected future performance of
the Legacy Assets in the NGN Program.

During 2012 and 2011, the TCCUSF was principally responsible for four initiatives and related
guarantees to stabilize the corporate credit union system: the Temporary Corporate Credit Union Share
Guarantee Program (TCCUSGP), the Temporary Corporate Credit Union Liquidity Guarantee Program
(TCCULGP), Promissory Notes, and NGNs. As of December 31, 2012, the TCCUSF had no further
obligations under the TCCUSGP, TCCULGP and Promissory Notes due to expiration of related
guarantees. As of December 31, 2012, the TCCUSF recognized no liability for the NGN Program.

While NCUA recognized no insurance losses for the TCCUSF at year-end 2012, since inception, the
TCCUSF has made approximately $9.4 billion in guarantee payments. At December 31, 2012, NCUA
estimated that approximately $1.1 billion will ultimately be recovered from the corporate credit union
asset management estates. Actual amounts recovered could differ from these estimates as the NGN
Program continues and the corporate credit union asset management estates are resolved.

Finally, NCUA increased transparency on the NGN Program through the distribution of press releases,
town hall style meetings, videos and Web pages. Web pages specifically devoted to the NGN Program
are available on NCUA’s Website and are updated every six months.

III. Financial Statement Analysis

During 2012, the financial condition of the TCCUSF remained stable in that it maintained sufficient
liquidity to meet its obligations and that the TCCUSF’s deficit continued to decline. At December 31,
2012, the TCCUSF had a negative Net Position of $3.5 billion, a change of approximately $1.8 billion as
compared to the year-end 2011 Net Position of negative $5.3 billion.

Summarized financial information is presented below for the TCCUSF.

                              Summarized Financial Information (in thousands)
                                                            December 31, 2012          December 31, 2011
    Total Assets                                                 $ 1,610,008               $ 1,195,035
    Receivables from Asset Management Estates, Net                 1,139,081                   626,678
    Fund Balance with Treasury and Investments                       377,901                   284,712
    Borrowings from the U.S. Treasury                              5,100,000                 3,500,000
    Insurance and Guarantee Program Liabilities                        -                     2,944,207
    Net Position                                                 (3,494,730)               (5,254,105)
    Net Income from Operations                                     1,669,388                 1,921,157
    Special Premium Revenue                                          792,493                 1,956,462
    Guarantee Fee Revenue                                             84,812                    89,468
    Provision for Insurance Losses, Reduction (Expense)              806,508                 (110,500)

Balance Sheet Highlights
Assets grew by $415.0 million in 2012 primarily as a result of increases in TCCUSF’s claims on
Receivables from Asset Management Estates. These net receivables increased by $512.4 million from
2011 to 2012. Reflected in the increase is the favorable change in the future cash flows of the Legacy
Assets in the NGN Program. Also, Fund Balance with Treasury (FBWT) and Investments increased by
$93.2 million from 2011 to 2012, primarily due to the monetization of assets within asset management
estates.



                                                         3
During 2012, the TCCUSF borrowed $1.9 billion from the U.S. Treasury and repaid $300.0 million,
resulting in an outstanding balance of $5.1 billion as of December 31, 2012. These borrowings were used
to fund the $3.5 billion guarantee payment for the Medium Term Notes (MTNs).

Insurance and Guarantee Program Liabilities, also referred to as contingent liabilities, decreased by
$2.9 billion in 2012. The reduction in Insurance and Guarantee Program Liabilities is due to the
guarantee payments that were previously accrued. These disbursements were for events such as the
maturity of $3.5 billion in MTNs and the liquidation of the remaining two Bridge Corporates. Also, by
December 31, 2012, all guarantees under the TCCUSGP and TCCULGP had expired. While the
contingent liability is zero at year-end, the TCCUSF continues to have a guarantee obligation for the
NGN Program. The contingent liability balance could increase in the future, depending on future
analyses of the value of Legacy Assets in the NGN Program.

Statement of Net Cost Highlights
Net Income from Operations was $1.7 billion for 2012, as compared to $1.9 billion for 2011. The 2012
net income is primarily from $792.5 million for Special Premium Revenue and $806.5 million from the
reduction in the Provision for Insurance Losses. This reduction is primarily due to the favorable change
in future cash flows of the Legacy Assets in the NGN Program. Additionally, net income includes
$84.8 million in Guarantee Fee Revenues.

Statement of Changes in Net Position Highlights
Cumulative Results of Operations increased by $1.8 billion in 2012. This increase was due to Net Income
from Operations of $1.7 billion and a distribution receivable from the NCUSIF of $88.1 million.

As of December 31, 2012 and 2011, the TCCUSF recorded an estimate for the distribution receivable
from the NCUSIF to bring the NCUSIF equity ratio to its normal operating level of 1.30 percent in the
amounts of $88.1 million and $278.6 million, respectively.

Statement of Budgetary Resources Highlights
Activity impacting budget totals of the overall Federal Government is recorded in the TCCUSF’s
Statements of Budgetary Resources. Total TCCUSF budgetary resources decreased in 2012 by
$4.0 billion, primarily due to guarantee payments related to the MTNs. The TCCUSF’s gross outlays of
$3.6 billion and $5.9 billion for 2012 and 2011, respectively, were used primarily to extinguish MTNs
and Promissory Notes.

Fiduciary Activity Highlights
As the TCCUSF was established to accrue the losses of the corporate credit union system and, over time,
assesses the credit union system for the recovery of such losses, the TCCUSF’s financial results are
driven by the financial performance of the corporate credit union asset management estates and the NGN
Program. The financial results of the corporate credit union asset management estates and the NGN
Trusts in the NGN Program are presented as fiduciary activities of the TCCUSF in accordance with the
Federal Accounting Standards Advisory Board’s Statement of Federal Financial Accounting Standard No.
31, Accounting for Fiduciary Activities, and are included in the notes to the TCCUSF financial
statements.

NGN Program
The outstanding principal balance of the NGNs was $21.2 billion and $24.7 billion as of December 31,
2012 and 2011, respectively. This amount represents the maximum potential future guarantee payments
that NCUA could be required to make without consideration of future expected cash flows from
underlying Legacy Assets and possible recoveries under the terms of the guarantee or from the asset
management estates. The losses from the guarantee of NGNs are expected to be significantly less than
the above maximum potential exposure, and such losses are based on estimated guarantee payments, net
of estimated guarantor reimbursements, if any, from the NGN Trusts and expected recoveries, if any,
from the asset management estates. The NCUA's estimate of the expected recovery from the asset
                                                        4
management estates reflects the NCUA's expectations and assumptions about the recovery value of the
asset management estates' assets, which include asset management estates' economic residual interests in
the NGN Trusts.

The NCUA's estimated guarantee payments, guarantor reimbursements and the recovery values, if any, of
the asset management estates' economic residual interests in the NGN Trusts are derived using an external
model that distributes estimated cash flows of the Legacy Assets transferred to the NGN Trusts in the
priority of payments pursuant to the governing documents of each NGN Trust. The estimated cash flows
incorporate the NCUA's assumptions about discount rates.

The estimated cash flows of the Legacy Assets transferred to the NGN Trusts are also derived from the
external model that incorporates the NCUA's expectations and assumptions about the estimated cash
flows from the collateral that comprise the Legacy Assets, and the priority of payments and estimated
cash flows of the Legacy Assets pursuant to the governing documents for the respective Legacy Assets.
The external model produces estimated cash flows of collateral underlying the Legacy Assets by
incorporating the NCUA's expectations and assumptions about prepayments, defaults and loss severity of
the collateral consisting of residential and commercial mortgage loans and other assets. Assumptions
about prepayments, defaults and loss severity are developed based on the characteristics and historical
performance of the collateral, as well as assumptions about macroeconomic variables such as
unemployment rates, housing prices and interest rates.

The table below represents the composition of Legacy Assets collateralizing the 13 NGN Trusts with an
aggregate unpaid principal balance of $28.2 billion and $34.3 billion and recovery value of approximately
$21.3 billion and $24.5 billion as of December 31, 2012 and 2011, respectively.

                                                               Based on Recovery Value                       Based on Unp aid Principal Balance
Asset Typ e and Credit Rating 1                               2012                      2011                      2012                    2011
            AAA                                                        1%                        3%                        1%                      2%
            AA                                                         5%                        7%                        3%                      4%
            A                                                          3%                        3%                        2%                      2%
 RM BS                                                  71%                       71%                       77%                     79%
            BBB                                                        3%                        5%                        2%                      3%
            Below Investment Grade                                    88%                       82%                       92%                     88%
            NA                                                         0%                        0%                        0%                      0%
            AAA                                                       18%                       16%                       19%                     17%
            AA                                                        21%                       15%                       21%                     15%
            A                                                         36%                       44%                       34%                     44%
 CM BS                                                  21%                       19%                       15%                     13%
            BBB                                                       11%                       15%                       11%                     14%
            Below Investment Grade                                    14%                       10%                       15%                     11%
            NA                                                         0%                        0%                        0%                      0%
            AAA                                                        3%                       23%                        2%                     18%
            AA                                                        35%                       18%                       25%                     15%
       2    A                                                         40%                       33%                       29%                     27%
  ABS                                                    4%                        6%                        4%                     5%
            BBB                                                        9%                        7%                        7%                      6%
            Below Investment Grade                                    13%                       19%                       37%                     34%
            NA                                                         0%                        0%                        0%                      0%
 Agency     Agency                                       2%          100%          3%          100%          2%          100%       2%           100%
            AAA                                                        0%                        0%                        0%                      0%
            AA                                                         2%                        2%                        2%                      2%
            A                                                         10%                       27%                        8%                     21%
Corp orate                                               2%                        2%                        2%                     2%
            BBB                                                       28%                       28%                       22%                     23%
            Below Investment Grade                                    20%                        1%                       18%                      5%
            NA                                                        40%                       41%                       50%                     49%
Percentages may not total 100% due to rounding.
1
    Credit rat ing is based on t he lowest rat ing published rat ing by St andard & P oor's, Moody’s, or Fit ch, where available.
2
    T he collat eral underlying t he ABS included in the t ables above is primarily st udent loans.



Due to uncertain systemic risks and the possibility of variances with assumptions, actual losses could
differ materially from the contingent liabilities recorded by the TCCUSF.

Performance measures are designed to enable management and the NCUA’s stakeholders to assess
programs and financial performance and to use this information to make improvements. Performance

                                                                                  5
measures have inherent limitations including the change over time in the correlation of cause and effect.
A strong correlation between cause and effect in one period may not continue into the next. In addition,
performance measures may not address systemic risks, which can have a significant determination on
future results.

Limitations of the Financial Statements

The principal financial statements have been prepared to report the financial position and results of
operations of the TCCUSF. While the statements have been prepared from the books and records of the
TCCUSF in accordance with U.S. generally accepted accounting principles (GAAP) for Federal entities
and the formats prescribed by the Office of Management and Budget, the statements are in addition to the
financial reports used to monitor and control budgetary resources that are prepared from the same books
and records. The statements should be read with the realization that they are for a component of the
U.S. Government, a sovereign entity.

Liquidity Risk and Capital Resources

For liquidity, the TCCUSF maintains cash in its FBWT as well as investments in overnight U.S. Treasury
Securities, which are available for the possibility of urgent liquidity needs.

               2012 and 2011 Fund Balance with Treasury and Investments (in thousands)
                                                           December 31, 2012      December 31, 2011
   Fund Balance with Treasury                                  $     1,425             $     -
   U.S. Treasury Securities, Overnight                             376,476               284,712

The FBWT account is increased by special premium assessments, guarantee fee income, proceeds from
borrowings from the U.S. Treasury, interest income on investments in U.S. Treasury Securities,
distributions from the NCUSIF, and any recoveries from the asset management estates. The FBWT
account is decreased by amounts expended in support of stabilizing the corporate credit union system,
including guarantee payments, repayment of borrowings from the U.S. Treasury and related interest
payments, and purchases of U.S. Treasury Securities.

The TCCUSF is a revolving fund in the U.S. Treasury and has access to sufficient funds to meet its
obligations, including its Insurance and Guarantee Program Liabilities.

The TCCUSF has multiple sources of funding including:
    special premium assessments on credit unions, as necessary;
    borrowings from the U.S. Treasury; and
    distributions from the NCUSIF, as provided by the FCU Act.

Special Premium Assessments
In January 2011, The National Credit Union Authority Clarification Act, Public Law 111-382
(Clarification Act), amended the FCU Act by clarifying NCUA’s authority to assess a premium against
credit unions not only to repay TCCUSF advances but also to make TCCUSF expenditures without
borrowing from the U.S. Treasury. The Clarification Act permits the NCUA Board to assess a special
premium with respect to each insured credit union in an aggregate amount that is reasonably calculated to
make any pending or future TCCUSF expenditures, in addition to existing authority to make assessments
to repay U.S. Treasury advances. The Clarification Act also states that the NCUA Board must take into
consideration any potential impact on credit union earnings that such an assessment may have and
requires the premium be paid not later than 60 days after the date of the assessment.

Borrowing Authority from the U.S. Treasury
The TCCUSF has $6.0 billion in maximum statutory borrowing authority, shared with the NCUSIF, from
the U.S. Treasury. As of December 31, 2012 and 2011, the TCCUSF had $5.1 billion and $3.5 billion in
                                                     6
borrowing outstanding from the U.S. Treasury, respectively; the NCUSIF had no borrowings outstanding.
As a result, the TCCUSF had $0.9 billion and $2.5 billion, respectively, in available borrowing authority,
shared with the NCUSIF. The estimated losses and liquidity needs of the TCCUSF are based on the
NCUA's expectations and assumptions about the resolution of failed corporate credit unions, including
the disposition and recovery value of their assets. Actual losses of the TCCUSF, including the TCCUSF's
funding needs, could differ from those estimates. Additional borrowing reduces funds available from this
source.

Distributions from the NCUSIF
In accordance with Section 202(c)(3) of the FCU Act, Distributions from Fund Required, the NCUA
Board shall effect a pro rata distribution from the NCUSIF to insured credit unions after each calendar
year, if: (i) any loans to the NCUSIF from the Federal Government, and any interest on those loans, have
been repaid; and (ii) the NCUSIF’s equity ratio exceeds the normal operating level, as defined, of
1.3 percent; and (iii) the NCUSIF’s available assets ratio, as defined, exceeds 1.0 percent. The amount of
distribution shall equal the maximum possible amount that does not reduce the NCUSIF’s equity ratio
below the normal operating level of 1.3 percent and does not reduce the NCUSIF’s available assets ratio
below 1.0 percent.

IV. Systems, Controls and Legal Compliance

The TCCUSF was created by Public Law 111 – 22, Helping Families Save Their Homes Act of 2009,
enacted May 20, 2009. NCUA, including the TCCUSF, is exempt from requirements under the Federal
Credit Reform Act of 1990 (2 U.S.C. §661e(a)(1)). The TCCUSF may make expenditures only in
connection with the conservatorship, liquidation, or threatened conservatorship or liquidation of a
corporate credit union. Governing legislation specified that the TCCUSF would close 90 days after the
seven year anniversary of its first borrowing from the U.S. Treasury, which was June 25, 2009. With the
concurrence of the U.S. Treasury, the TCCUSF’s closing date was extended to June 30, 2021.

Internal controls should be designed to provide reasonable assurance regarding prevention or prompt
detection of unauthorized acquisition, use, or disposition of assets. The Federal Manager’s Financial
Integrity Act (FMFIA) requires agencies to establish management controls over their programs and
financial systems. Accordingly, NCUA management is responsible for establishing and maintaining
effective internal controls and financial management systems that meet the objectives of FMFIA, which
include safeguarding assets and compliance with applicable laws and regulations. NCUA managers
monitor and assess their relevant internal controls and report on their assessment. This allows NCUA
management to provide reasonable assurance that internal controls are operating effectively. NCUA is in
compliance with FMFIA as well as all applicable laws such as the Prompt Payment Act, and the Debt
Collection and Improvement Act. As required by the Improper Payments Elimination and Recovery Act,
NCUA determined that the TCCUSF’s programs are not susceptible to a high risk of significant improper
payments.




                                                        7
                                   KPMG LLP
                                   Suite 12000
                                   1801 K Street, NW
                                   Washington, DC 20006




                                       Independent Auditors’ Report


Inspector General, National Credit Union Administration and
the Board of Directors, National Credit Union Administration:


Report on the Financial Statements
We have audited the accompanying financial statements of the National Credit Union Administration
Temporary Corporate Credit Union Stabilization Fund (TCCUSF), which comprise the balance sheets as
of December 31, 2012 and 2011, and the related statements of net cost, changes in net position, and
budgetary resources for the years then ended, and the related notes to the financial statements.
Management's Responsibilities
Management is responsible for the preparation and fair presentation of these financial statements in
accordance with U.S. generally accepted accounting principles; this includes the design, implementation,
and maintenance of internal control relevant to the preparation and fair presentation of financial
statements (Internal Control Over Financial Reporting) that are free from material misstatement, whether
due to fraud or error.
Auditors’ Responsibilities
Our responsibility is to express an opinion on these financial statements based on our audits. We
conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audit to obtain reasonable assurance about
whether the financial statements are free from material misstatement.
An audit involves performing procedures to obtain audit evidence about the amounts and disclosures in
the financial statements. The procedures selected depend on the auditors’ judgment, including the
assessment of the risks of material misstatement of the financial statements, whether due to fraud or error.
In making those risk assessments, the auditor considers internal control relevant to the entity's preparation
and fair presentation of the financial statements in order to design audit procedures that are appropriate in
the circumstances, but not for the purpose of expressing an opinion on the effectiveness of the entity's
internal control. Accordingly, we express no such opinion. An audit also includes evaluating the
appropriateness of accounting policies used and the reasonableness of significant accounting estimates
made by management, as well as evaluating the overall presentation of the financial statements.
We believe that the audit evidence we have obtained is sufficient and appropriate to provide a basis for
our audit opinion.




                                   KPMG LLP is a Delaware limited liability partnership,
                                   the U.S. member firm of KPMG International Cooperative
                                   (“KPMG International”), a Swiss entity.
Opinion on the Financial Statements
In our opinion, the financial statements referred to above present fairly in all material respects, the
financial position of the National Credit Union Administration Temporary Corporate Credit Union
Stabilization Fund as of December 31, 2012 and 2011, and its net costs, changes in net position, and
budgetary resources for the years then ended in accordance with U.S. generally accepted accounting
principles.


Emphasis of Matter
As discussed in Note 1 to the financial statements, the TCCUSF changed its presentation for reporting the
statement of budgetary resources in 2012, based on new reporting requirements under OMB Circular No.
A-136, Financial Reporting Requirements. As a result, the TCCUSF’s statement of budgetary resources
for 2011 has been adjusted to conform to the current year presentation.
Supplemental Information
U.S. generally accepted accounting principles require that the information in the Overview and Required
Supplementary Information be presented to supplement the basic financial statements. Such information,
although not a part of the basic financial statements, is required by the Federal Accounting Standards
Advisory Board who considers it to be an essential part of financial reporting for placing the basic
financial statements in an appropriate operational, economic, or historical context. We have applied
certain limited procedures to the required supplementary information in accordance with auditing
standards generally accepted in the United States of America, which consisted of inquiries of
management about the methods of preparing the information and comparing the information for
consistency with management’s responses to our inquiries, the basic financial statements, and other
knowledge we obtained during our audits of the basic financial statements. We do not express an opinion
or provide any assurance on the information because the limited procedures do not provide us with
sufficient evidence to express an opinion or provide any assurance.
Other Reporting Responsibilities
Internal Control Over Financial Reporting

In planning and performing our audit of the financial statements, we considered the TCCUSF’s internal
control as a basis for designing audit procedures that are appropriate in the circumstances for the purpose
of expressing our opinion on the financial statements, but not for the purpose of expressing an opinion on
the effectiveness of the TCCUSF’s internal control. Accordingly, we do not express an opinion on the
effectiveness of the TCCUSF’s internal control.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent, or
detect and correct misstatements on a timely basis. A material weakness is a deficiency, or combination
of deficiencies, in internal control, such that there is a reasonable possibility that a material misstatement
of the entity’s financial statements will not be prevented, or detected and corrected on a timely basis.

Our consideration of internal control was for the limited purpose described in the first paragraph of this
section and was not designed to identify all deficiencies in internal control that might be material
weaknesses. Given these limitations, during our audit we did not identify any deficiencies in internal
control that we consider to be material weaknesses. However, material weaknesses may exist that have
not been identified.

Compliance and Other Matters

As part of obtaining reasonable assurance about whether the TCCUSF’s financial statements are free of
material misstatement, we performed tests of its compliance with certain provisions of laws, regulations,
and contracts, noncompliance with which could have a direct and material effect on the determination of
financial statement amounts and certain provisions of other laws and regulations specified in OMB
Bulletin No. 07-04. However, providing an opinion on compliance with those provisions was not an
objective of our audit, and accordingly, we do not express such an opinion. The results of our tests
disclosed no instances of noncompliance or other matters that are required to be reported under
Government Auditing Standards or OMB Bulletin No. 07-04.

Purpose of the Other Reporting Responsibilities
The purpose of the communication related to internal control over financial reporting and compliance and
other matters described in this Other Reporting Responsibilities section is solely to describe the scope of
our testing of internal control and compliance and the result of that testing and not to provide an opinion
on the effectiveness of the entity’s internal control or compliance. This communication is an integral part
of an audit performed in accordance with Government Auditing Standards in considering the entity’s
internal control and compliance. Accordingly, this communication is not suitable for any other purpose.



March 27, 2013
NATIONAL CREDIT UNION ADMINISTRATION
TEMPORARY CORPORATE CREDIT UNION STABILIZATION FUND

BALANCE SHEETS
As of December 31, 2012 and 2011
(Dollars in thousands)

                                                                                 2012                2011
ASSETS
INTRAGOVERNMENTAL
   Fund Balance with Treasury (Note 2)                                       $        1,425      $          -
   Investments, Net - U.S. Treasury Securities (Note 3)                             376,476             284,712
   Accounts Receivable - Due from the National
     Credit Union Share Insurance Fund                                                  690                  -
   Other - Distribution Receivable from the National Credit
     Union Share Insurance Fund (Note 5)                                             88,090             278,641
      Total Intragovernmental Assets                                                466,681             563,353

PUBLIC
  Accounts Receivable - Special Premium Assessments from Insured
   Credit Unions, Net (Note 4)                                                               8                   93
  Accounts Receivable - Guarantee Fee on Temporary Corporate
   Credit Union Liquidity Guarantee Program, Net (Note 4)                                -                  446
  Accounts Receivable - Guarantee Fee on National Credit Union
  Administration Guaranteed Notes, Net (Note 4)                                       4,238               4,465
  Other - Receivables from Asset Management Estates, Net (Note 6)                 1,139,081             626,678
     Total Public Assets                                                          1,143,327             631,682
TOTAL ASSETS                                                                 $    1,610,008      $    1,195,035

LIABILITIES
INTRAGOVERNMENTAL
   Accounts Payable - Due to the National Credit Union
    Share Insurance Fund                                                     $          -        $            2
   Debt - Borrowings from the U.S. Treasury (Note 7)                              5,100,000           3,500,000
   Other - Accrued Interest Payable to the U.S. Treasury (Note 7)                     3,901               2,477
      Total Intragovernmental Liabilities                                         5,103,901           3,502,479
PUBLIC
  Accounts Payable                                                                      723               1,423
  Other Liabilities                                                                     114               1,031
  Other - Insurance and Guarantee Program Liabilities (Note 8)                          -             2,944,207
     Total Public Liabilities                                                           837           2,946,661
TOTAL LIABILITIES                                                                 5,104,738           6,449,140
Commitments and Contingencies (Note 8)

NET POSITION
  Cumulative Result of Operations (Note 1)                                        (3,494,730)         (5,254,105)
     Total Net Position                                                           (3,494,730)         (5,254,105)
TOTAL LIABILITIES AND NET POSITION                                           $     1,610,008     $     1,195,035

The accompanying notes are an integral part of these financial statements.


                                                                    11
NATIONAL CREDIT UNION ADMINISTRATION
TEMPORARY CORPORATE CREDIT UNION STABILIZATION FUND

STATEMENTS OF NET COST
For the Years Ended December 31, 2012 and 2011
(Dollars in thousands)

                                                                                 2012                  2011

GROSS COSTS
Interest Expense on Borrowings (Note 7)                                      $           6,601     $            2,477
Provision for (Reduction of) Insurance Losses
    Reserve Expense (Note 8)                                                        (237,935)                 110,500
    AME Receivable Bad Debt Expense (Note 6)                                        (568,573)                     -
Imputed Costs                                                                          1,897                    3,778
Fee on Early Retirement of Borrowings from the U.S. Treasury (Note 7)                     25                      -
Administrative Expenses                                                                6,238                    8,223
     Total Gross Costs                                                              (791,747)                 124,978

LESS EARNED REVENUES
Special Premium Revenue                                                             (792,493)            (1,956,462)
Guarantee Fee Revenue - National Credit Union Administration
  Guaranteed Notes                                                                      (80,511)              (82,618)
Guarantee Fee Revenue - Temporary Corporate Credit Union
  Liquidity Guarantee Program                                                            (4,301)               (6,850)
Interest Revenue - Investments                                                             (336)                 (205)
     Total Earned Revenues                                                          (877,641)            (2,046,135)

NET COST OF/(INCOME) FROM OPERATIONS                                         $     (1,669,388)     $     (1,921,157)

The accompanying notes are an integral part of these financial statements.




                                                                  12
NATIONAL CREDIT UNION ADMINISTRATION
TEMPORARY CORPORATE CREDIT UNION STABILIZATION FUND

STATEMENTS OF CHANGES IN NET POSITION
For the Years Ended December 31, 2012 and 2011
(Dollars in thousands)

                                                                                 2012                2011

CUMULATIVE RESULTS OF OPERATIONS

Beginning Balances                                                           $     (5,254,105)   $     (7,457,681)

BUDGETARY FINANCING SOURCES
 Other - Distribution Receivable from the National Credit Union
  Share Insurance Fund (Note 5)                                                         88,090              278,641

OTHER FINANCING SOURCES
 Imputed Financing                                                                       1,897                3,778
     Total Financing Sources                                                            89,987              282,419

Net (Cost) of/Income from Operations                                                1,669,388           1,921,157
Net Change                                                                          1,759,375           2,203,576


CUMULATIVE RESULTS OF OPERATIONS                                                   (3,494,730)         (5,254,105)

NET POSITION                                                                 $     (3,494,730)   $     (5,254,105)

The accompanying notes are an integral part of these financial statements.




                                                                  13
NATIONAL CREDIT UNION ADMINISTRATION
TEMPORARY CORPORATE CREDIT UNION STABILIZATION FUND

STATEMENTS OF BUDGETARY RESOURCES
For the Years Ended December 31, 2012 and 2011
(Dollars in thousands)

                                                                                     2012                2011
BUDGETARY RESOURCES (Notes 10, 11, 12, and 14)
Unobligated balance, brought forward, January 1                                  $    3,058,245      $    6,362,814
Borrowing authority (mandatory)                                                         300,000                 -
Spending authority from offsetting collections (mandatory)
  Collected                                                                           1,848,467           2,312,603
  Change in receivables from federal sources                                                690                (194)
  Anticipated nonexpenditure transfer                                                    88,090             278,641
  Permanently not available                                                            (300,000)                -
TOTAL BUDGETARY RESOURCES                                                        $    4,995,492      $    8,953,864

STATUS OF BUDGETARY RESOURCES
Obligations incurred                                                             $    3,635,629      $    5,895,619
Unobligated balance, end of year:
  Exempt from apportionment                                                           1,359,863           3,058,245
Total unobligated balance, end of year                                                1,359,863           3,058,245
TOTAL STATUS OF BUDGETARY RESOURCES                                              $    4,995,492      $    8,953,864

CHANGE IN OBLIGATED BALANCE
Unpaid obligations, brought forward, January 1                                   $          5,108    $          10,091
Uncollected customer payments from Federal sources, brought forward, January 1                -                   (194)
Obligated balance, start of year (net), as adjusted                                        5,108               9,897
Obligations incurred                                                                   3,635,629           5,895,619
Outlays (gross)                                                                       (3,633,920)         (5,900,602)
Change in uncollected customer payments from Federal sources                                (690)                194
Obligated balance, end of year
  Unpaid obligations, end of year                                                           6,817                5,108
  Uncollected customer payments from Federal sources, end of year                            (690)                 -
OBLIGATED BALANCE, END OF YEAR (NET)                                             $          6,127    $           5,108

BUDGET AUTHORITY AND OUTLAYS, NET
Budget authority, gross (mandatory)                                              $     1,937,247     $     2,591,194
Actual offsetting collections (mandatory)                                             (1,848,467)         (2,312,603)
Change in uncollected customer payments from Federal sources (mandatory)                    (690)                194
Anticipated offsetting collections (mandatory)                                           (88,090)           (278,641)
BUDGET AUTHORITY, NET (MANDATORY)                                                $            -      $            144

Outlays, gross (mandatory)                                                       $     3,633,920     $     5,900,602
Actual offsetting collections (mandatory)                                             (1,848,467)         (2,312,603)
AGENCY OUTLAYS, NET (MANDATORY)                                                  $    1,785,453      $    3,587,999

The accompanying notes are an integral part of these financial statements.




                                                                   14
 NATIONAL CREDIT UNION ADMINISTRATION
 TEMPORARY CORPORATE CREDIT UNION STABILIZATION FUND

 NOTES TO THE FINANCIAL STATEMENTS
 AS OF AND FOR THE YEARS ENDED DECEMBER 31, 2012 AND 2011


1. SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES

  Reporting Entity

  The Temporary Corporate Credit Union Stabilization Fund (TCCUSF) was created by Public Law
  111-22, Helping Families Save Their Homes Act of 2009 (Helping Families Act), enacted May 20,
  2009. The TCCUSF was established as a revolving fund in the Treasury of the United States
  (U.S. Treasury) under the management of the National Credit Union Administration (NCUA) Board
  (NCUA Board). The purposes of the TCCUSF are to accrue the losses of the corporate credit union
  (CCU) system and, over time, assess the credit union system for the recovery of such losses.

  The TCCUSF may make expenditures only in connection with the conservatorship, liquidation, or
  threatened conservatorship or liquidation of a CCU. Governing legislation specified that the TCCUSF
  would terminate 90 days after the seven year anniversary of its first borrowing from the U.S. Treasury,
  which was June 25, 2009. With the concurrence of the U.S. Treasury, the TCCUSF’s termination date
  was extended to June 30, 2021.

  On June 18, 2009, the NCUA Board approved actions to legally obligate the TCCUSF for the costs of
  stabilizing the CCU system. These actions legally obligated the TCCUSF for all liabilities arising from
  the Temporary Corporate Credit Union Share Guarantee Program (TCCUSGP) and the Temporary
  Corporate Credit Union Liquidity Guarantee Program (TCCULGP). Under the TCCUSGP, the NCUA
  guaranteed the entire share amount that member credit unions had on deposit with CCUs, subject to
  certain limitations. Under the TCCULGP, the NCUA guaranteed the timely payment of principal and
  interest on certain unsecured debt of participating CCUs. The funding for the NCUA’s guarantees
  under the TCCUSGP and TCCULGP was primarily provided by the TCCUSF. The TCCUSGP ended
  December 31, 2012. Also, the TCCULGP had no remaining guarantees on unsecured debt of
  participating CCUs as of December 31, 2012.

  Fiduciary Responsibilities
  Fiduciary activities are the collection or receipt, management, protection, accounting, investment, or
  disposition by the Federal Government of cash or other assets, in which non-federal individuals or
  entities have an ownership interest that the Federal Government must uphold. The NCUA’s AMAC
  conducts liquidations and performs management and recovery of assets for failed credit unions,
  including failed CCUs. The assets and liabilities of the Asset Management Estates (AMEs) and NGN
  Trusts are considered fiduciary in accordance with the Statement of Federal Financial Accounting
  Standards (SFFAS) No. 31, Accounting for Fiduciary Activities (SFFAS No. 31). Fiduciary assets are
  not assets of the Federal Government and therefore are not recognized on the Balance Sheet of the
  TCCUSF.

  On September 24, 2010, the NCUA Board announced the Corporate System Resolution Program
  (CSRP). The CSRP is a multi-stage plan for stabilizing the CCU system, providing short-term and
  long-term funding to resolve a portfolio of residential mortgage-backed securities , commercial
  mortgage-backed securities , other asset-backed securities and corporate bonds (collectively referred to
  as the Legacy Assets) held by the failed CCUs, and establishing a new regulatory framework for CCUs.
  Under the CSRP, the NCUA created a re-securitization program to provide long-term funding for the
  Legacy Assets through the issuance of the NCUA Guaranteed Notes (NGNs) by the trusts established
  for this purpose (NGN Trusts). The NGNs are guaranteed by the NCUA, and backed by the full faith
  and credit of the United States Government. The principal funding for the NCUA’s guarantees on the
                                                         15
NGNs is provided by the TCCUSF. To the extent that required funding for the guarantees exceeds the
funds available from the TCCUSF, the National Credit Union Share Insurance Fund (NCUSIF) will
provide the needed funds.

As part of the CSRP, the NCUA Board liquidated five CCUs during 2010. The assets and liabilities of
liquidated CCUs were placed into AMEs, and are administered by the NCUA Board as liquidating
agent, through its Asset Management and Assistance Center (AMAC), pursuant to applicable
provisions of the Federal Credit Union Act (FCU Act). To facilitate the resolution process, the NCUA
Board chartered four bridge corporate credit unions (Bridge Corporates) to purchase certain assets and
assume certain liabilities and member shares from the AMEs. The Bridge Corporates were private legal
entities. While legally separate from the TCCUSF and therefore not part of the reporting entity, they
remained in the conservatorship of the NCUA Board. The U.S. Central Bridge Corporate Federal
Credit Union (USC Bridge) and Western Bridge Corporate Federal Credit Union (Western Bridge)
were placed into liquidation during 2012. The two other Bridge Corporates were resolved through
unassisted mergers with other CCUs in 2011. When establishing the Bridge Corporates, to the extent
that the liabilities and shares assumed exceeded the assets purchased by the Bridge Corporates, the
AMEs issued promissory notes (Promissory Notes) to the Bridge Corporates for the difference. Each
Promissory Note was guaranteed by the NCUA through the TCCUSF. All Promissory Notes have
since been paid in full.

Sources of Funding
The TCCUSF has multiple sources of funding, including special premium assessments, investment
interest income, guarantee fees, and borrowings from the U.S. Treasury. The NCUA Board may assess
premiums to all insured credit unions, as provided by the FCU Act.

The TCCUSF may also receive additional funding from the NCUSIF under certain circumstances. As
part of the Helping Families Act, when the TCCUSF has an advance outstanding from the U.S.
Treasury and the NCUSIF would have otherwise paid a distribution to insured credit unions, the
NCUSIF is obligated to make distributions to the TCCUSF in lieu of distributions to the insured credit
unions to the maximum amount possible that does not reduce the NCUSIF’s equity ratio below the
normal operating level, as defined, of 1.3 percent, and does not reduce the NCUSIF’s available assets
ratio, as defined, below 1.0 percent.

In addition, the TCCUSF has $6.0 billion in revolving borrowing authority from the U.S. Treasury,
shared with the NCUSIF. At December 31, 2012 and 2011, there was $0.9 billion and $2.5 billion in
available borrowing authority, respectively.

Legislation
In January 2011, The National Credit Union Authority Clarification Act, Public Law 111-382
(Clarification Act), amended the FCU Act by clarifying NCUA’s authority to assess a premium against
federally insured (insured) credit unions not only to repay TCCUSF advances but also to make
TCCUSF expenditures without borrowing from the U.S. Treasury. The Clarification Act permits the
NCUA Board to assess a special premium with respect to each insured credit union in an aggregate
amount that is reasonably calculated to make any pending or future TCCUSF expenditures, in addition
to existing authority to make assessments to repay U.S. Treasury advances. The Clarification Act also
states that the NCUA Board must take into consideration any potential impact on insured credit union
earnings that such an assessment may have and requires the premium be paid not later than 60 days
after the date of the assessment.




                                                     16
Basis of Presentation

The TCCUSF’s financial statements have been prepared from its accounting records in accordance with
standards promulgated by the Federal Accounting Standards Advisory Board (FASAB). FASAB is
designated by the American Institute of Certified Public Accountants as the source of generally
accepted accounting principles (GAAP) for federal reporting entities. The format of the financial
statements and footnotes are in accordance with the form and content guidance provided in Office of
Management and Budget (OMB) Circular A-136, Financial Reporting Requirements, revised
August 3, 2012.

Basis of Accounting

In its accounting structure, the TCCUSF records both proprietary and budgetary accounting
transactions. Following the accrual method of accounting, revenues are recognized when earned and
expenses are recognized when incurred, without regard to the actual collection or payment of cash.

Federal budgetary accounting recognizes the obligation of appropriations, borrowing authorities, and
other funds upon the establishment of a properly documented legal liability, which may be different
from the recording of an accrual-based transaction. The recognition of budgetary accounting
transactions is essential for compliance with legal controls over the use of federal funds and compliance
with budgetary laws.

The NCUA, including the TCCUSF, is exempt from requirements of the Federal Credit Reform Act of
1990 (Section 661e(a)(1)).

Use of Estimates

The preparation of financial statements in conformity with GAAP for the Federal Government requires
management to make estimates and assumptions that affect the following:

       reported amounts of assets and liabilities;
       disclosure of contingent assets and liabilities at the date of the financial statements; and
       the amounts of revenues and costs reported during that period.

Actual results could differ from estimates. Significant items subject to those estimates and assumptions
include: (i) reserves for probable losses and contingencies related to Insurance and Guarantee Program
Liabilities; (ii) the amount and timing of recoveries, if any, related to any claims paid in settlement of
the guarantee liabilities; and (iii) allowance amounts established related to reimbursements from AMEs
for claims paid in settlement of the guarantee liabilities. Since 2009, the economic environment has
increased the degree of uncertainty inherent in those estimates and assumptions.

Fund Balance with Treasury

Fund Balance with Treasury (FBWT) is the aggregate amount of the TCCUSF’s accounts with the
Federal Government’s central accounts, from which the TCCUSF is authorized to make expenditures
and pay liabilities. The entire FBWT is a revolving fund type.

Investments

Investments represent non-marketable U.S. Treasury securities purchased and reported at par value,
which are overnight securities managed by the Bureau of the Public Debt (BPD). Cash balances in
FBWT may be invested in non-marketable U.S. Treasury securities.



                                                       17
Accounts Receivable

Accounts receivable represent the TCCUSF’s claims for payment from other entities. Gross
receivables are reduced to net realizable value by an allowance for doubtful accounts as further
discussed below. The TCCUSF’s accounts receivable consists of two components: Intragovernmental
and Public. Intragovernmental accounts receivable due from the NCUSIF represent activity collected
by the NCUSIF on behalf of the TCCUSF, but not yet transferred to the TCCUSF for its use and
benefit. Public accounts receivable represent outstanding balances of the special premiums assessed to
insured credit unions and guarantee fees associated with the TCCULGP and NGNs, as described herein.

Allowance for Doubtful Accounts
An allowance for doubtful accounts represents the TCCUSF’s best estimate of the amount of credit
losses in an existing receivable. Based on an assessment of collectability, the TCCUSF calculates an
allowance on an individual account basis for public accounts receivable. An account may be impaired
or written off if it is probable that the TCCUSF will not collect all amounts contractually due. No
allowance is calculated for intragovernmental accounts receivable, as these are deemed to be fully
collectible.

Other - Distribution Receivable

The TCCUSF records a distribution receivable from the NCUSIF, per Section 217(e) of the FCU Act,
when the TCCUSF has an outstanding advance (borrowing) from the U.S. Treasury and the NCUSIF is
required to make a distribution. As such, the NCUSIF is prohibited from making the distribution to
insured credit unions described in Section 202(c)(3) of the FCU Act and instead must make its
distribution to the TCCUSF.

Other - Receivables from Asset Management Estates

Receivables from AMEs include claims to recover payments made by the TCCUSF to satisfy
obligations to insured shareholders and other guaranteed parties and to recoup administrative expenses
paid on behalf of AMEs. Any related allowance for losses represents the difference between the funds
disbursed and the expected repayment from the AMEs pursuant to the liquidation payment priorities set
forth in 12 Code of Federal Regulations (CFR) § 709.5(b), Payout Priorities in Involuntary Liquidation
(12 CFR § 709.5(b)). Assets held by the AMEs are the main source of repayment of the TCCUSF’s
receivables from the AMEs. The recoveries from these AME assets are paid to the TCCUSF to the
extent a receivable is due.

The allowance for losses on receivables from AMEs is based on asset recovery rates and comes from
several sources, including:

       actual or pending AME asset disposition data;
       asset valuation data based upon the performance, quality, and type of the assets in the portfolio;
       estimated liquidation costs based on information from recently failed credit unions; and
       estimated AME specific administrative expenses based upon complexity and expected duration
        of the AME.

Asset recovery rates are evaluated during the year but remain subject to uncertainties because of
potential changes in economic and market conditions.

Debt – Borrowings from the U.S. Treasury

The amount of debt owed and payable by the TCCUSF is recognized at par value and consists solely of
borrowings from the U.S. Treasury, specifically through BPD.

                                                      18
Other - Accrued Interest Payable to the U.S. Treasury

Accrued interest payable represents interest expense incurred but unpaid on principal owed to the U.S.
Treasury on borrowings.

Insurance and Guarantee Program Liabilities and Contingencies

In accordance with SFFAS No. 5, Accounting for Liabilities of The Federal Government (SFFAS
No. 5), all federal insurance and guarantee programs, except social insurance and loan guarantee
programs, should recognize a liability for the following:

       unpaid claims incurred, resulting from insured events that have occurred as of the reporting
        date;
       a contingent liability when an existing condition, situation, or set of circumstances involving
        uncertainty as to possible loss exists, and the uncertainty will ultimately be resolved when one
        or more probable future events occur or fail to occur; and
       a future outflow or other sacrifice of resources that is probable.

The TCCUSF records a contingent liability for probable losses relating to CCUs under the TCCUSGP
and TCCULGP, as well as probable losses, if any, for the guarantees associated with the NGNs and the
Promissory Notes, net of any anticipated recoveries. All guarantees under the TCCUSGP and
TCCULGP expired as of December 31, 2012.

Liabilities for loss contingencies also arise from claims, assessments, litigation, fines, penalties and
other sources. These liabilities are recorded when it is probable that a liability has been incurred and
the amount of the assessment and/or remediation can be reasonably estimated. Legal costs incurred in
connection with loss contingencies are expensed as incurred.

Net Position and Accumulated Deficit

The TCCUSF has an accumulated deficit in its net position primarily due to the Insurance and
Guarantee Program Liabilities, borrowings from the U.S. Treasury, and the allowance for losses
associated with the receivables from AMEs. As allowed under the TCCUSF’s enabling legislation, and
incorporated into the FCU Act as Section 217(g), the financial condition of the TCCUSF may reflect a
deficit. In accordance with Section 217(d) of the FCU Act, the TCCUSF may assess special premiums
to recover the losses of the CCU system borne by the TCCUSF over time.

Revenue Recognition

Exchange Revenue
Exchange revenues arise and are recognized when a Federal Government entity provides goods and
services to the public or to another Federal Government entity for a price. Exchange revenue consists
of special premium assessments, guarantee fee income, interest revenue, and other fees.

Special Premium Assessments from Insured Credit Unions
Under the statutory authority provided by the Helping Families Act, the NCUA Board may assess each
insured credit union a special premium charge that shall be stated as a percentage of its insured shares
as represented on the insured credit union’s previous call report.

Guarantee Fees on Temporary Corporate Credit Union Liquidity Guarantee Program
For a fee, the NCUA guarantees the timely payment of principal and interest on certain unsecured debt
of participating CCUs, principally funded through the TCCUSF.



                                                      19
  Guarantee Fees on NCUA Guaranteed Notes
  For a fee, the NCUA guarantees the timely payment of principal and interest on the NGNs, principally
  funded through the TCCUSF.

  Non-exchange Revenue
  Non-exchange revenues are inflows of resources that the Federal Government demands or receives by
  donation. Such revenues are recognized when a specifically identifiable, legally enforceable claim to
  resources arises, to the extent that collection is probable (more likely than not) and the amount is
  reasonably estimable.

  Imputed Financing Sources

  The TCCUSF records an imputed cost on the Statement of Net Cost and an offsetting imputed
  financing source on the Statement of Changes in Net Position for CSRP administrative expenses paid
  by the NCUA Operating Fund but not reimbursed by the TCCUSF.

  Statement of Budgetary Resources

  The TCCUSF has updated the Statement of Budgetary Resources presentation in the 2012 financial
  statements in accordance with the new presentation requirements of OMB Circular No. A-136,
  Financial Reporting Requirements. All calendar year 2011 activity and balances reported on the
  Statement of Budgetary Resources have been reclassified to conform to the presentation in the current
  year.

  Tax-Exempt Status

  The TCCUSF is exempt from Federal income taxes under Section 501(c)(1) of the Internal Revenue
  Code.

  Reclassification

  Certain prior year amounts have been reclassified to conform to the current year presentation.

2. FUND BALANCE WITH TREASURY

  FBWT balances and status at December 31, 2012 and 2011, consisted of the following:

                                                            2012                     2011
  (Dollars in thousands)
  Total Fund Balance with Treasury:
   Revolving Funds                                 $               1,425     $                -

  Status of Fund Balance with Treasury:
   Unobligated Balance - Available                 $          1,359,863      $          3,058,245
   Obligated Balance Not Yet Disbursed                            6,817                     5,108
   Non-Budgetary FBWT Accounts                                 (376,476)                 (284,712)
   Non-FBWT Budgetary Accounts                                 (988,779)               (2,778,641)
  Total                                            $               1,425     $                -


  As a revolving fund, the FBWT is used for continuing business-like activities. The TCCUSF collects
  special premium assessments and guarantee fees, which are used to fund payments for the
  conservatorship, liquidation, or threatened conservatorship or liquidation of CCUs, without requirement

                                                       20
  for annual appropriations. FBWT contains monies available for future obligations as well as monies
  obligated for current activities. Non-budgetary FBWT Accounts consist of investments, while non-
  FBWT Budgetary Accounts may consist of borrowing authority, nonexpenditure transfers, and changes
  in federal receivables. Funds not needed for immediate liquidity are invested in overnight U.S.
  Treasury securities.

  As of December 31, 2012 and 2011, there were no unreconciled differences between U.S. Treasury
  records and balances reported in the TCCUSF’s general ledger.

  As of December 31, 2011, there was a $52.9 million credit balance for FBWT in the TCCUSF’s general
  ledger as well as the U.S. Treasury. This credit balance was due to the purchase of an overnight U.S.
  Treasury security in an amount greater than funds available. The TCCUSF’s FBWT and overnight U.S.
  Treasury securities are held with the same counter party, the U.S. Treasury. NCUA offset the FBWT
  with the overnight investment balance, resulting in FBWT of zero dollars and a reduction of
  investments by $52.9 million. NCUA resolved the credit balance with the U.S. Treasury on January 3,
  2012.

3. INVESTMENTS

  The TCCUSF invests in non-marketable daily overnight U.S. Treasury securities, which are purchased
  at par value. The cost and market value of U.S. Treasury securities were as follows:

  As of December 31, 2012 and 2011                                           Amortized
                                                          Amortization       (Premium)            Interest                                Other           Market Value
                                              Cost          Method            Discount           Receivable           Investments       Adjustments        Disclosure
  (Dollars in thousands)

  Non-Marketable, par value, 12/31/2012   $     376,476              n/a $               -   $                -   $         376,476 $             -   $         376,476

  Non-Marketable, par value, 12/31/2011   $     284,712              n/a $               -   $                -   $         284,712 $             -   $         284,712



4. ACCOUNTS RECEIVABLE

  Public – Accounts Receivable

  Special Premium Assessments from Insured Credit Unions
  As of December 31, 2012 and 2011, special premium assessments that had not been paid by insured
  credit unions totaled $8.0 thousand and $93.0 thousand, respectively.

  TCCULGP Guarantee Fee Receivable
  For a fee, the NCUA guaranteed the timely payment of principal and interest on certain unsecured debt
  of participating CCUs, principally through the TCCUSF. The TCCUSF invoiced participating CCUs
  on a monthly basis for the guarantee fee. As of December 31, 2012 and 2011, there were $0 and
  $446.0 thousand in TCCULGP guarantee fee receivable, respectively. The TCCUSF had no remaining
  guarantees on unsecured debt of participating CCUs under the TCCULGP as of December 31, 2012.

  NGN Guarantee Fee Receivable
  For a fee, the NCUA guarantees the timely payment of principal and interest on the NGNs, principally
  through the TCCUSF. Guarantee fees on each NGN Trust are 35 basis points per year, payable
  monthly, on the outstanding balance of the NGNs. As of December 31, 2012 and 2011, there were
  $4.2 million and $4.5 million in NGN guarantee fees receivable, respectively.


                                                                             21
  Allowance for Doubtful Accounts
  The allowance for doubtful accounts on public accounts receivable above was zero as of December 31,
  2012 and 2011.

5. OTHER - DISTRIBUTION RECEIVABLE

  In accordance with Section 202(c)(3) of the FCU Act, Distributions from Fund Required, the NCUA
  Board shall effect a pro rata distribution from the NCUSIF to insured credit unions after each calendar
  year, if:
         (i) any loans to the NCUSIF from the Federal Government, and any interest on those loans, have
         been repaid; and
         (ii) the NCUSIF’s equity ratio exceeds the normal operating level, as defined, of 1.3 percent; and
         (iii) the NCUSIF’s available assets ratio, as defined, exceeds 1.0 percent.

  The amount of distribution shall equal the maximum possible amount that does not reduce the
  NCUSIF’s equity ratio below the normal operating level, as defined, of 1.3 percent, and does not reduce
  the NCUSIF’s available assets ratio, as defined, below 1.0 percent. In any year that the TCCUSF has
  an outstanding borrowing from the U.S. Treasury, the NCUA Board must make the distribution to the
  TCCUSF rather than to insured credit unions.

  As of December 31, 2012 and 2011, the TCCUSF had an outstanding advance (borrowing) from the
  U.S. Treasury. As a result, as of December 31, 2012 and 2011, the TCCUSF had a distribution
  receivable due from the NCUSIF of $88.1 million and $278.6 million, respectively.

6. OTHER – RECEIVABLES FROM ASSET MANAGEMENT ESTATES

  As of December 31, 2012 and 2011, the gross receivables from AMEs were $8.3 billion and $5.6
  billion, and the related allowance for losses was $7.1 billion and $5.0 billion, for net receivables from
  AMEs of $1.1 billion and $626.7 million, respectively. The net receivables from AMEs represent the
  TCCUSF's expected reimbursements from the AMEs for claims paid by the TCCUSF.

  The allowance for losses takes into account the NCUA’s assessment of expected recovery from the
  AMEs that reflects the NCUA's expectations and assumptions about the recovery value of the AMEs'
  assets, as further discussed under fiduciary activities in Note 13.

                                                     For the Year Ended         For the Year Ended
                                                     December 31, 2012          December 31, 2011
  (Dollars in thousands)
  Gross Receivables from AMEs                       $            8,266,119     $            5,626,017

  Allowance for Losses, beginning balance                        4,999,339                        -
   AME Receivable Bad Debt Expense (Reduction)                    (568,573)                       -
    Increase in Allowance                                        2,696,272                  4,999,339
  Allowance for Losses, ending balance                           7,127,038                  4,999,339
  Receivables from AMEs, Net                        $            1,139,081     $             626,678


7. DEBT – BORROWINGS FROM U.S. TREASURY

  As of December 31, 2012 and 2011, the TCCUSF owed $5.1 billion and $3.5 billion to the
  U.S. Treasury, respectively. For 2012, the TCCUSF borrowed a total of $1.9 billion from the
  U.S. Treasury, repaid $300.0 million of borrowings, incurred interest expense of $6.6 million on
  outstanding principal, and paid fees of $25.0 thousand on the early retirement of debt. During 2011, the
  TCCUSF borrowed a total of $3.5 billion from the U.S. Treasury and incurred interest expense of
                                                         22
  $2.5 million. As of December 31, 2012 and 2011, accrued interest payable was $3.9 million and
  $2.5 million, respectively.

8. OTHER LIABILITIES – INSURANCE AND GUARANTEE PROGRAM LIABILITIES

  In 2012, the TCCUSF was principally responsible for three initiatives and related guarantees to stabilize
  the CCU system: TCCUSGP, TCCULGP, and NGNs. During 2011, the TCCUSF was also responsible
  for Promissory Note issuances which were fully repaid as of December 31, 2011. The NCUA’s
  guarantees on the Promissory Notes and NGNs are a direct result of the NCUA’s implementation of the
  CSRP.

  The NCUA uses both internal and external models, as well as external valuations to some extent, to
  estimate contingent liabilities associated with the four guarantees, as discussed herein. As shown in the
  table below, the TCCUSF recorded contingent liabilities on the TCCUSF’s Balance Sheet of
  approximately $0 and $2.9 billion as of December 31, 2012 and 2011, respectively. Pursuant to the
  FCU Act, the NCUA is authorized to assess insured credit unions for the recovery of such losses during
  the life of the TCCUSF.

  For the Years Ended December 31, 2011 and 2012

                                               TCCUSGP           TCCULGP       Promissory Notes       NGNs           TOTAL
  (Dollars in thousands)

  Beginning Balance, 1/1/2011              $         47,189 $      2,402,447 $        4,768,897 $       614,513 $     7,833,046
  Reserve Expense (Reduction)                        13,690          494,006            217,317        (614,513)        110,500
  Insurance Losses (Claims) Paid/Settled            (26,611)         (13,125)        (5,679,041)            -        (5,718,777)
  Recoveries/Claims on AMEs                          26,611              -              692,827             -           719,438
  Ending Balance, 12/31/2011                        60,879         2,883,328               -                 -        2,944,207

  Reserve Expense (Reduction)                        (3,879)         (234,056)             -                 -         (237,935)
  Insurance Losses (Claims) Paid/Settled           (144,609)       (3,532,126)             -                 -       (3,676,735)
  Recoveries/Claims on AMEs                          87,609           882,854              -                 -          970,463
  Ending Balance, 12/31/2012               $            -    $            -    $           -      $          -   $          -



  A description of each TCCUSF initiative and the associated contingent liability is provided below.

  Temporary Corporate Credit Union Share Guarantee Program

  The TCCUSGP is a guarantee of shares (excluding paid-in-capital and membership capital accounts) at
  CCUs that began on January 28, 2009. The TCCUSGP protects the entire share account of credit
  unions that are members of CCUs, subject to certain limitations. On March 1, 2009, the guarantee
  became voluntary when CCUs were provided the option to participate in the TCCUSGP. Nearly all
  CCUs elected to participate. The initial expiry of the guarantee was set for December 31, 2010;
  however, it was extended on a quarterly basis through December 31, 2012. The TCCUSGP expired on
  December 31, 2012.

  CCUs participating in the TCCUSGP did not pay a fee to the TCCUSF directly attributable to the
  guarantee. To fund any claims under this initiative, the TCCUSF is authorized to make special
  premium assessments of insured credit unions and, if necessary, draw on available borrowings from the
  U.S. Treasury. The TCCUSF's obligation to pay holders of guaranteed shares arises only upon the
  liquidation of the participating CCU.

                                                                  23
As discussed herein, five CCUs were liquidated during 2010, which resulted in the establishment of
four Bridge Corporates. Pursuant to the NCUA Board action, the participation of these Bridge
Corporates in the TCCUSGP was approved. Each Bridge Corporate entered into a Letter of
Understanding and Agreement with the NCUA to extend the TCCUSGP to the Bridge Corporates’
shares that were assumed from the AMEs. Two Bridge Corporates were resolved through unassisted
mergers with other CCUs in 2011. USC Bridge and Western Bridge were placed into liquidation during
2012.

As a result, the TCCUSF was obligated for any liability arising from insured shares equal to the
Standard Maximum Share Insurance Amount (SMSIA), as defined, and from shares in excess of the
SMSIA guaranteed under the TCCUSGP. To the extent that the liability could exceed the funds
available from the TCCUSF, the NCUSIF would provide the needed funds.

The TCCUSF's Insurance and Guarantee Program Liability associated with the TCCUSGP as of
December 31, 2012 and 2011 totaled approximately $0 and $60.9 million, respectively. The expected
losses from the TCCUSGP was dependent upon the NCUA's expectations and assumptions about the
Bridge Corporates and other CCUs’ financial condition and projected operating cash flows, and any
expected recoveries after payment of a TCCUSGP liability. As of December 31, 2012 and 2011, the
aggregate outstanding insured shares of the CCUs under the TCCUSGP were $0 and $34.0 billion,
respectively. The aggregate outstanding insured shares of the CCUs represents the maximum potential,
but not the expected amount of, guarantee payments that the NCUA may be required to make under the
terms of the TCCUSGP.

Temporary Corporate Credit Union Liquidity Guarantee Program

The TCCULGP was created in October 2008 to provide a guarantee on certain unsecured debt of
participating CCUs. Under the terms of the TCCULGP, for a fee, the NCUA guaranteed the timely
payment of principal and interest on certain unsecured debt of participating CCUs issued prior to
September 30, 2011, principally funded through the TCCUSF.

Under the TCCULGP, the TCCUSF had no remaining guarantees on unsecured debt of participating
CCUs as of December 31, 2012. The ability for CCUs to issue new debt under the TCCULGP ended
on September 30, 2011.

For 2012 and 2011, the NCUA had made payments under the TCCULGP related to the AMEs’ Medium
Term Notes, as described below.

Medium Term Notes
In 2009, U.S. Central Federal Credit Union and Western Corporate Federal Credit Union issued
Medium Term Notes (MTNs) to the public debt market. These MTNs were guaranteed by the NCUA
under the TCCULGP.

As of December 31, 2011 and through the maturity dates in 2012, the MTN principal amount of
$3.5 billion was outstanding and guaranteed under the TCCULGP as represented below.

As of December 31, 2012 and 2011
(Dollars in thousands)
                                    December 31, 2012       December 31, 2011
Coupon                Maturity Date    Outstanding             Outstanding
1.90%; Fixed             10/19/2012 $             -         $       2,000,000
1.75%; Fixed              11/2/2012               -                 1,500,000
                                      $              -       $       3,500,000

                                                   24
The TCCUSF's Insurance and Guarantee Program Liability associated with the TCCULGP as of
December 31, 2012 and 2011 totaled approximately $0 and $2.9 billion, respectively. The TCCUSF's
expected loss was based on the NCUA's assessment of the guarantee exposure on the aggregate
outstanding amount of MTNs, net of expected recovery from the AMEs that reflects the NCUA's
expectations and assumptions about the recovery value of the AMEs' assets, as further discussed under
fiduciary activities in Note 13.

Promissory Notes

In accordance with the terms of each Promissory Note agreement between the AMEs and Bridge
Corporates, each Promissory Note was guaranteed by the NCUA and primarily funded by the TCCUSF.
To fund any claims under this initiative, the TCCUSF is authorized to make special premium
assessments as discussed herein and, if necessary, to draw on available borrowings from the U.S.
Treasury. As of December 31, 2012 and 2011, the NCUA had no contingent liability against its
guarantee on the Promissory Notes as they were fully repaid as of December 31, 2011. During 2011,
the NCUA applied funds primarily received from the issuance of NGNs, borrowings from U.S.
Treasury, and special premium assessments, to repay the Promissory Notes of $18.2 billion. This
amount included $5.7 billion in guarantee payments made by the TCCUSF.

NCUA Guaranteed Notes

Beginning in October 2010, the NCUA Board, as liquidating agent of the AMEs, transferred Legacy
Assets to NGN Trusts and re-securitized them through the issuance of a series of floating and fixed-rate
NGNs. The NGNs have final maturities ranging from 2013 to 2021. As of December 31, 2012 and
2011, the outstanding principal balance of the NGNs was $21.2 billion and $24.7 billion, respectively.
This amount represents the maximum potential, but not the expected, future guarantee payments that
NCUA could be required to make.

The NCUA, principally through the TCCUSF, is obligated to make guarantee payments through the
NGN Trusts to the NGN holders under certain conditions outlined in the respective indentures and
related agreements with respect to timely payment of interest and ultimate principal on the NGNs, as
well as any parity payments. As of a given payment date, parity payments are due when the unpaid
principal balance of all Legacy Assets underlying a particular NGN Trust, after realized and implied
losses, if applicable, is less than the remaining unpaid principal balance of the related NGNs after
distribution of all cash collected on the Legacy Assets for such payment date.

As of December 31, 2012 and 2011, the probable losses for the guarantee of NGNs associated with 13
re-securitization transactions was zero; the gross estimated guarantee payments were approximately
$4.5 billion and $5.5 billion, respectively. These payments are estimated to be offset in part by:

      i)       related reimbursements and interest from the legacy assets of the NGN Trusts
               received directly from contractual reimbursement rights pursuant to the NGN
               governing documents of approximately $3.3 billion and $3.9 billion; and
      ii)      indirectly by collections under 12 CFR § 709.5(b) from the AMEs’ economic
               residual interests in NGN Trusts of approximately $2.0 billion and $1.6 billion as
               of December 31, 2012 and 2011, respectively, that are estimated to remain after
               all obligations of the NGN Trusts are satisfied.

Recoveries in the form of potential guarantor reimbursements by the NGN Trusts to the NCUA are
subordinate to payments on the NGNs in accordance with the respective indentures. As such,
reimbursements to the NCUA will not occur until the applicable NGN has been repaid in full. After the
NGNs are repaid in full, any cash flows received on those Legacy Assets underlying the NGN Trusts

                                                     25
  are directed toward reimbursements until the NCUA is reimbursed in full. The NCUA earns interest on
  any guarantee payments not yet reimbursed by the NGN Trusts at a rate equal to the interest rate on the
  associated NGNs.

  Guarantee fees are senior in the NGN Trust payment waterfall in accordance with the respective
  indentures. It is expected that the NCUA will receive a guarantee fee payment from the NGN Trusts on
  each NGN payment date. The guarantee fee amount due to the NCUA, at each monthly payment date,
  is equal to 35 basis points per year on the outstanding NGN balance prior to the distribution of principal
  on the payment date.

  The TCCUSF's Insurance and Guarantee Program Liability attributed to the NGNs as of December 31,
  2012 and 2011 was zero. The TCCUSF's expected net guarantee obligation is based on the estimated
  guarantee payments, net of estimated guarantor reimbursements from the NGN Trusts and expected
  recoveries from the AMEs, as further discussed under fiduciary activities in Note 13.

  The NCUA's estimated guarantee payments, guarantor reimbursements, and the recovery value of the
  AMEs' economic residual interests in the NGN Trusts are derived using an external model that
  distributes estimated cash flows of the Legacy Assets transferred to the NGN Trusts in the priority of
  payments pursuant to the indenture of each NGN Trust. The estimated cash flows incorporate the
  NCUA's assumptions about discount rates.

  The estimated cash flows of the Legacy Assets transferred to the NGN Trusts are also derived from the
  external model that incorporates the NCUA's expectations and assumptions about the estimated cash
  flows from the collateral that comprise the Legacy Assets, and the priority of payments and estimated
  cash flows of the Legacy Assets pursuant to the governing documents for the respective Legacy Assets.

  The external model produces estimated cash flows of collateral underlying the Legacy Assets by
  incorporating the NCUA's expectations and assumptions about prepayments, defaults and loss severity
  of the collateral consisting of residential and commercial mortgage loans and other assets. Assumptions
  about prepayments, defaults and loss severity are developed based on the characteristics and historical
  performance of the collateral, as well as assumptions about macroeconomic variables such as
  unemployment rates, housing prices and interest rates.

9. INTRAGOVERNMENTAL COSTS AND EXCHANGE REVENUE

  Program costs and revenues are separated between Intragovernmental and Public to facilitate
  government-wide financial reporting. Intragovernmental revenue and expenses arise from transactions
  with other federal entities, including imputed costs for CSRP administrative expenses paid by the
  NCUA Operating Fund but not reimbursed by the TCCUSF. Public revenue and expenses arise from
  transactions with persons and organizations outside of the Federal Government. The associated costs
  and revenue of the TCCUSF’s initiatives for the years ended December 31, 2012 and 2011 are provided
  below. When guarantee payments are made for the TCCUSF’s initiatives, the TCCUSF obtains funds
  from special premium assessments, available cash, investments, and borrowings from the U.S.
  Treasury.




                                                        26
   For the Year Ended December 31, 2012

   Intragovernmental Costs and                                              Promissory
   Exchange Revenue                         TCCUSGP         TCCULGP           Notes            NGNs             Other           TOTAL
   (Dollars in thousands)

   Intragovernmental Costs              $          -    $          -    $           -      $          -     $       8,523 $         8,523
   Public Costs (Reduction)                     (3,879)       (234,056)             -                 -          (562,335)       (800,270)
       Total                                    (3,879)       (234,056)             -                 -          (553,812)       (791,747)

   Intragovernmental Exchange Revenue             -                -                -                -               (336)           (336)
   Public Exchange Revenue                        -             (4,301)             -            (80,511)        (792,493)       (877,305)
       Total                                      -             (4,301)             -            (80,511)        (792,829)       (877,641)

        Net Cost/(Income)               $       (3,879) $     (238,357) $                - $     (80,511) $     (1,346,641) $   (1,669,388)



   For the Year Ended December 31, 2011

   Intragovernmental Costs and                                              Promissory
   Exchange Revenue                         TCCUSGP         TCCULGP           Notes            NGNs             Other           TOTAL
   (Dollars in thousands)

   Intragovernmental Costs              $          -   $           -   $            -   $            -    $         6,255 $         6,255
   Public Costs (Reduction)                     13,690         494,006          217,317         (614,513)           8,223         118,723
       Total                                    13,690         494,006          217,317         (614,513)          14,478         124,978

   Intragovernmental Exchange Revenue             -                -                -                -                (205)           (205)
   Public Exchange Revenue                        -             (6,850)             -            (82,618)       (1,956,462)     (2,045,930)
       Total                                      -             (6,850)             -            (82,618)       (1,956,667)     (2,046,135)

        Net Cost/(Income)               $       13,690 $       487,156 $        217,317 $       (697,131) $     (1,942,189) $   (1,921,157)

   For the years ended December 31, 2012 and 2011, other intragovernmental costs of $8.5 million and
   $6.3 million, respectively, included interest expense on borrowings, imputed costs, and the fee on the
   early retirement of borrowings from the U.S Treasury. Public costs include administrative costs and an
   overall reduction of the AME receivable bad debt expense and reserve expense in calendar year 2012,
   totaling a negative $800.3 million, and $118.7 million for the years ended December 31, 2012 and
   2011, respectively. Public exchange revenue of $877.3 million and $2.0 billion consists primarily of
   special premium assessments invoiced during the years ended December 31, 2012 and 2011,
   respectively.

10. TERMS OF BORROWING AUTHORITY USED

   On June 23, 2009, the NCUA entered into a Memorandum of Understanding (MOU) with the U.S.
   Treasury to establish the terms and conditions for borrowing from the U.S. Treasury. This MOU is
   reviewed and updated annually. Interest is payable annually on the anniversary of the first advance,
   which was June 25, 2009. The interest rate resets on each anniversary at a rate equal to the average
   market yield on the outstanding marketable obligations of the United States with maturities equal to
   12 months. The interest rate per the MOU was 0.191 percent and 0.165 percent at December 31, 2012
   and 2011, respectively, with a maturity of June 25, 2021. Early repayment of any advance shall be at a
   price determined by the U.S. Treasury per the current MOU.

                                                                          27
11. AVAILABLE BORROWING AUTHORITY, END OF PERIOD

   The TCCUSF shares its $6.0 billion borrowing authority from the U.S. Treasury with the NCUSIF. For
   the years ended December 31, 2012 and 2011, the TCCUSF borrowed $1.9 billion and $3.5 billion from
   the U.S. Treasury, respectively. The TCCUSF repaid $300.0 million of borrowings in 2012.

   At December 31, 2012 and 2011, the TCCUSF, together with the NCUSIF, had $0.9 billion and
   $2.5 billion in available borrowing authority from the U.S. Treasury, respectively.

12. DISCLOSURES RELATED TO THE STATEMENT OF BUDGETARY RESOURCES

   The Statement of Budgetary Resources discloses total budgetary resources available to the TCCUSF
   and the status of resources as of December 31, 2012 and 2011. Activity affecting budget totals of the
   overall Federal Government budget is recorded in the TCCUSF’s Statement of Budgetary Resources.
   As of December 31, 2012 and 2011, the TCCUSF’s resources in budgetary accounts totaled $5.0 billion
   and $9.0 billion, respectively.

   Undelivered orders were $2.2 million and $1.2 million at December 31, 2012 and 2011, respectively.
   All liabilities are covered by budgetary resources, excluding the Insurance and Guarantee Program
   Liabilities. All obligations incurred by the TCCUSF are reimbursable, meaning that obligations will be
   ultimately reimbursed from the special premium assessments to insured credit unions and from other
   collections. The TCCUSF is exempt from OMB apportionment control.

   Budgetary resources listed on the TCCUSF’s financial statements and the budgetary resources found in
   the budget of the Federal Government differ because the TCCUSF’s financial statements are prepared
   as of December 31, calendar year, rather than as of September 30, the Federal Government’s fiscal year
   end.

13. FIDUCIARY ACTIVITIES

   The NCUA's fiduciary activities, in accordance with SFFAS No. 31, involve the collection or receipt,
   management, protection, accounting, investment, or disposition by AMEs and NGN Trusts of cash and
   other assets. Fiduciary assets are not assets of the Federal Government. Fiduciary activities are not
   recognized on the financial statements, but are reported in the notes to the financial statements in
   accordance with SFFAS No. 31.

   The NCUA Board, as liquidating agent of the AMEs, disburses funds for obligations owed by and
   collects money due to the AMEs.

   The Bridge Corporates, as previously discussed herein, were established to function in a temporary
   capacity and were formed by the NCUA Board as chartered private enterprises to purchase and assume
   selected assets, liabilities and member shares of the AMEs resulting from the five CCU liquidations that
   occurred in 2010. The Bridge Corporates were established to provide uninterrupted services to the
   consumer credit unions and CCUs that were members of the now failed CCUs.

   At the time of liquidation in 2010, the AMEs had an aggregate deficit of approximately $7.2 billion,
   which represents the difference between the value of the AMEs' assets and the contractual or settlement
   amount of the claims and member shares recognized by the NCUA Board as the liquidating agent.

   The liquidation of the CCUs and the creation of the Bridge Corporates also resulted in the issuance of
   $36.0 billion in Promissory Notes by the AMEs to the Bridge Corporates. The Promissory Notes
   represented reimbursements to the Bridge Corporates for the difference between assets purchased and
   liabilities and member shares assumed from the AMEs.
                                                        28
As previously discussed herein, in an effort to maximize recoveries and minimize losses to the AMEs
and all insured credit unions, the NCUA provided guarantees on the various obligations of the AMEs,
including the Promissory Notes and the MTNs. In addition, to facilitate the orderly liquidation of the
Legacy Assets held by the AMEs, the NCUA provided guarantees on the NGNs issued through a series
of re-securitization transactions. During the year ended December 31, 2011, the NCUA completed
eight NGN transactions with net proceeds received of $10.6 billion, bringing the total of NGN
transactions and net proceeds received to 13 and $28.3 billion, respectively. The majority of proceeds
from the NGN issuances were used to partially repay the Promissory Notes owed by the AMEs to the
Bridge Corporates. During the year ended December 31, 2011, NCUA fully repaid the aggregate
outstanding amount of the Promissory Notes. As of December 31, 2012, all Bridge Corporates have
been closed through merger or liquidation.

The schedules of fiduciary activity and the fiduciary net assets/liabilities of the AMEs and the NGN
Trusts for the years ended December 31, 2012 and 2011 are presented below. The preparation of these
schedules requires the NCUA Board, in its role as the liquidating agent, to make estimates and
assumptions that affect the reported amounts of assets, liabilities, revenues and expenses of the AMEs
and the NGN Trusts.

The NCUA, in its role as the guarantor, is exposed to the risk of loss from various guarantees extended
to the creditors of both the AMEs and the NGN Trusts. The estimates and expectations regarding the
contingent liabilities recorded on the TCCUSF's Balance Sheet related to these guarantees are based on
our current assumptions about the future performance of Legacy Assets collateralizing the NGNs issued
through the NGN Trusts and the recovery value of other assets held by the AMEs. Actual results could
differ materially from our current estimates and expectations.

Schedule of Fiduciary Activity
                                                                          For the Year Ended December 31, 2012

(Dollars in thousands)                                  AMEs              NGN Trusts              Eliminations           TOTAL

 Fiduciary Net Liabilities, Beginning of Year       $     7,480,343   $                -      $                  -   $     7,480,343
 Net Realized Losses upon Liquidations                       26,902                    -                         -            26,902
 Revenues
   Interest on Loans                                        (7,898)                   -                      -                (7,898)
   Income from AMEs on Re-Securitized Assets                   -                 (338,358)               338,358                 -
   Income from Investment Securities                      (462,231)                   -                      -              (462,231)
   Other Fiduciary Revenues                                (17,751)                   -                      -               (17,751)
 Expenses
   Professional and Outside Services Expenses               15,834                    -                       -              15,834
   Interest Expense on Borrowings and NGNs                  52,526                257,847                     -             310,373
   Payments to NGN Trusts                                  338,358                    -                  (338,358)              -
   Guarantee Fees                                            4,301                 80,511                     -              84,812
   Other Expenses                                            9,112                    -                       -               9,112
 Net Change in Recovery Value of
 Assets and Liabilities                                   (622,592)                    -                         -          (622,592)
 Increase/(Decrease) in Fiduciary Net Liabilities         (663,439)                    -                         -          (663,439)

FIDUCIARY NET LIABILITIES, END OF YEAR              $     6,816,904   $                -      $                  -   $     6,816,904




                                                          29
Schedule of Fiduciary Activity
                                                                              For the Year Ended December 31, 2011

(Dollars in thousands)                                     AMEs               NGN Trusts              Eliminations            TOTAL

 Fiduciary Net Liabilities, Beginning of Year          $     7,339,784    $                -      $                  -    $     7,339,784
 Net Realized Losses upon Liquidations                             -                       -                         -                -
 Revenues
   Interest on Loans                                           (25,525)                   -                       -               (25,525)
   Income from AMEs on Re-Securitized Assets                       -                 (337,666)                337,666                 -
   Income from Investment Securities                          (528,065)                   -                       -              (528,065)
   Other Fiduciary Revenues                                   (180,937)                   -                       -              (180,937)
 Expenses
   Professional and Outside Services Expenses                  78,584                     -                        -               78,584
   Interest Expense on Borrowings and NGNs                    151,609                 255,048                      -              406,657
   Payments to NGN Trusts                                     337,666                     -                   (337,666)               -
   Guarantee Fees                                               6,850                  82,618                                      89,468
   Other Expenses                                              10,266                     -                          -             10,266
 Net Change in Recovery Value of
 Assets and Liabilities                                       290,111                      -                         -            290,111
 Increase in Fiduciary Net Liabilities                        140,559                      -                         -            140,559

FIDUCIARY NET LIABILITIES, END OF YEAR                 $     7,480,343    $                -      $                  -    $     7,480,343



The schedule of fiduciary activity includes revenues earned on the investments including Legacy
Assets, loans, real estate and other investments, and expenses incurred in orderly liquidation of the
AMEs, including interest expense on borrowings and the NGNs. The Net Change in Recovery Value of
Assets and Liabilities includes the realized and unrealized gains and losses on the Legacy Assets, loans,
real estate, investments and other assets and liabilities.

Schedule of Fiduciary Net Assets/Liabilities                                        As of December 31, 2012

(Dollars in thousands)                                     AMEs               NGN Trusts              Eliminations            TOTAL

Fiduciary Assets
  Cash and Cash Equivalents                            $        39,503    $           322,737     $               -       $       362,240
  Legacy Assets                                                     49                    -                       -                    49
  Legacy Assets/Investments Collateralizing the NGNs        21,251,948                696,395                     -            21,948,343
  Loans                                                        146,341                    -                       -               146,341
  Receivable from AMEs                                             -               20,154,923             (20,154,923)                -
  Other Fiduciary Assets                                       208,018                    -                       -               208,018
TOTAL FIDUCIARY ASSETS                                      21,645,859             21,174,055             (20,154,923)         22,664,991
Fiduciary Liabilities
  Accrued Expenses                                             (40,830)               (14,048)                    -                (54,878)
  NGNs                                                             -              (21,160,007)                    -            (21,160,007)
  Due to NGN Trusts                                        (20,154,923)                   -                20,154,923                  -
  Unsecured Claims and Payables                                   (891)                   -                       -                   (891)
  Due to TCCUSF (Note 6)                                    (8,266,119)                   -                       -             (8,266,119)
TOTAL FIDUCIARY LIABILITIES                                (28,462,763)           (21,174,055)             20,154,923          (29,481,895)
TOTAL FIDUCIARY NET ASSETS / (LIABILITIES)             $    (6,816,904)   $               -       $               -       $     (6,816,904)




                                                              30
Schedule of Fiduciary Net Assets/Liabilities                                As of December 31, 2011
(Dollars in thousands)                             AMEs                NGN Trusts            Eliminations           TOTAL

Fiduciary Assets
  Cash and Cash Equivalents                    $       709,700     $          349,061     $              -      $     1,058,761
  Legacy Assets                                            383                    -                      -                  383
  Legacy Assets Collateralizing the NGNs            24,547,781                155,447                    -           24,703,228
  Loans                                                362,926                    -                      -              362,926
  Receivable from AMEs                                       -             24,164,790            (24,164,790)               -
  Other Fiduciary Assets                               258,963                    -                      -              258,963
TOTAL FIDUCIARY ASSETS                              25,879,753             24,669,298            (24,164,790)        26,384,261
Fiduciary Liabilities
  Accrued Expenses                                      (66,440)              (16,231)                   -               (82,671)
  MTNs                                               (3,500,000)                  -                      -            (3,500,000)
  NGNs                                                      -             (24,653,067)                   -           (24,653,067)
  Due to NGN Trusts                                 (24,164,790)                  -               24,164,790                 -
  Unsecured Claims                                       (2,849)                  -                      -                (2,849)
  Due to TCCUSF (Note 6)                             (5,626,017)                  -                      -            (5,626,017)
TOTAL FIDUCIARY LIABILITIES                         (33,360,096)          (24,669,298)            24,164,790         (33,864,604)
TOTAL FIDUCIARY NET ASSETS / (LIABILITIES)     $     (7,480,343)   $              -       $                 -   $     (7,480,343)



The schedule of fiduciary net assets reflects the expected recovery value of the AMEs' assets, including
the Legacy Assets collateralizing the NGNs issued through the NGN Trusts, and the settlement value of
valid claims against the AMEs outstanding at December 31, 2012 and 2011. Certain claims against the
AMEs, including the MTNs and the NGNs, are guaranteed by the NCUA as previously discussed
herein.

Fiduciary assets include cash, investments, including Legacy Assets collateralizing the NGNs,
consumer and mortgage loans, investments in credit union service organizations, buildings, fixtures,
furniture, equipment and other investments. Fiduciary assets are recorded at values that the NCUA
expects to recover based on market information and external valuations, such as appraisals, as well as
internal and external models incorporating the NCUA’s current assumptions regarding numerous
factors, including prepayments, defaults, loss severity and discount rates.

Fiduciary liabilities include the Promissory Notes, MTNs and NGNs and related accrued interest
expense, unsecured claims and accrued liquidation costs. Fiduciary liabilities related to borrowings and
claims are recorded at their contractual or settlement amounts as agreed by the NCUA and the creditors.
Accrued liquidation costs reflect the NCUA's estimates and assumptions regarding the timing and
associated costs to dispose of the AME assets. The future estimate of liquidation costs, as well as the
actual amounts, could differ materially from current estimates and assumptions.

Unless expressly guaranteed by the NCUA and backed by the full faith and credit of the United States,
the AMEs' unsecured creditors could only expect to be paid if recoveries from the assets of the AMEs
are sufficient to be distributed to the unsecured creditors in order of priority as set forth in 12 CFR §
709.5(b).




                                                       31
14. RECONCILIATION OF NET COST OF OPERATIONS TO BUDGET

   The Reconciliation of Net Cost of Operations to Budget explains the difference between the budgetary
   net obligations and proprietary net cost of operations during the years ended December 31, 2012 and
   2011. The Reconciliation of Net Cost of Operations to Budget consisted of the following:

                                                                         As of                As of
         Reconciliation of Net Cost of Operations to Budget         December 31, 2012    December 31, 2011
         (Dollars in Thousands)

         Resources Used to Finance Activities:

         Unobligated Balance, brought forward, January 1            $      3,058,245     $      6,362,814
         Borrowing Authority Realized                                        300,000                    -
         Spending Authority from Offsetting Collections
             Collected                                                     1,848,467            2,312,603
             Change in Receivables from Federal Sources                          690                 (194)
           Permanently not available                                        (300,000)                   -
           Nonexpenditure Transfers, Net                                      88,090              278,641

             Total Budgetary Resources                                      4,995,492            8,953,864
             Less Unobligated Balance - Exempt from Apportionment          (1,359,863)          (3,058,245)
         Total Obligations Incurred                                         3,635,629            5,895,619
         Imputed Financing                                                      1,897                3,778
                 Total Resources Used to Finance Activities                3,637,526            5,899,397

         Resources Used to Fund Items Not Part of the Net Cost of
         Operations:
         Other Collections                                                  (970,826)            (266,468)
         Change in Budgetary Resources Obligated for Goods and
          Services Not Yet Received                                              (987)               7,473
         Costs Capitalized on the Balance Sheet                            (3,218,608)          (5,626,956)
         Other Adjustments to Net Obligated Resources that
          do not Affect Net Cost of Operations                                  (917)               1,032
                 Total Resources Used to Fund Items Not Part of
                 the Net Cost of Operations                                (4,191,338)          (5,884,919)


         Costs Included in the Net Cost of Operations That Do Not
         Require Resources During the Reporting Period:

         Reserve for Guarantee Liabilities                                  (237,935)             110,500
         Revenue Recognized
            Interest Collected - on Investments                                  (336)                (205)
            Guarantee Fees                                                    (84,812)             (89,468)
            Special Premiums                                                 (792,493)          (1,956,462)
                Total Costs That Do Not Require Resources                  (1,115,576)          (1,935,635)

         Net Cost of Operations                                     $      (1,669,388)   $      (1,921,157)

15. SUBSEQUENT EVENTS

   Subsequent events have been evaluated from the Balance Sheet date through March 27, 2013, which is
   the date the financial statements were available to be issued. Management has determined that there
   were no items to disclose as of December 31, 2012.

                                                              32
REQUIRED SUPPLEMENTARY INFORMATION (UNAUDITED)


 Risk Assumed Information

 Contingent Liability

 As discussed previously herein, the purpose of the TCCUSF is to accrue the losses of the CCU system
 and, over time, assess insured credit unions for the recovery of such losses. The NCUA identifies
 CCUs at risk of failure through the supervisory and examination process and estimates losses based
 upon macroeconomic trends and CCU's financial condition and operations.

 The contingent liability for expected losses from the CCU system recognized by the TCCUSF pursuant
 to SFFAS No. 5 was approximately $0 and $2.9 billion at December 31, 2012 and 2011, respectively.
 During 2012 and 2011, the TCCUSF was principally responsible for four initiatives and related
 guarantees to stabilize the corporate credit union system: the TCCUSGP, the TCCULGP, Promissory
 Notes, and NGNs. As of December 31, 2012, the TCCUSF had no further obligations under the
 TCCUSGP, TCCULGP and Promissory Notes due to expiration of related guarantees. As of December
 31, 2012, NCUA recognized no liabilities for insurance losses from the NGNs.

 At December 31, 2012 and 2011 the TCCUSF had accrued for losses of the CCU system of
 approximately $7.1 billion and $7.9 billion consisting of approximately $0 and $2.9 billion in
 contingent liability and $7.1 billion and $5.0 billion in allowance for losses against receivables from the
 AMEs, respectively.

 As discussed in Notes 6 and 8, during 2012 and 2011, the TCCUSF made guarantee payments of
 $3.7 billion and $5.7 billion, respectively. As of December 31, 2012 and 2011, the TCCUSF had gross
 receivables from the AMEs of $8.3 billion and $5.6 billion, against which an allowance for losses of
 approximately $7.1 billion and $5.0 billion was established, respectively.

 Fees and Premiums

 Under the TCCULGP and NGN initiatives, the TCCUSF is entitled to guarantee fees on a monthly
 basis for providing associated guarantees as previously discussed in Notes 4 and 8. As of December 31,
 2012, the estimated value of TCCUSF guarantee fees for the remaining term of the TCCULGP and the
 NGNs are $0 and $280.4 million, respectively. As of December 31, 2011, the estimated value of
 TCCUSF guarantee fees for the remaining term of the TCCULGP and the NGNs, which will lessen the
 expected losses recognized by TCCUSF, are $4.3 million and $380.8 million, respectively.

 In addition, the NCUA Board, under the FCU Act, may assess insured credit unions special premiums
 to cover payments for the conservatorship, liquidation, or threatened conservatorship or liquidation of
 CCUs. The TCCUSF assessed a special premium of $792.5 million and $2.0 billion in 2012 and 2011,
 respectively. The NCUA Board expects to assess additional special premiums on insured credit unions
 periodically for the recovery of losses over the remaining term of the TCCUSF.

 Sensitivity, Risks and Uncertainties of the Assumptions

 As discussed in Note 8, the NCUA estimates the expected losses from the initiatives created by the
 NCUA to stabilize the CCU system using various methodologies, including internal models, market
 information and external valuations such as appraisals, and internal and external models that
 incorporate the NCUA's expectations and assumptions about the financial condition and operations of
 the Bridge Corporates, CCUs and the AMEs, as well as the anticipated recovery value, if any, of the
 AMEs' assets and the Legacy Assets collateralizing the NGNs.


                                                       33
The development of assumptions for key input variables of the estimation models and external
valuations is a highly subjective process that involves significant judgment. Future values are difficult
to estimate, especially over longer timeframes. Key assumptions in the modeling include borrower
status, prepayments, default, loss severity, discount rates, forward interest rate curves, house price
appreciation forecasts, legal and regulatory changes, property locations, and unemployment
expectations. Assumptions also vary by asset type and vintage. The assumptions developed for the
estimation models are periodically evaluated by the NCUA to determine the reasonableness of those
assumptions over time.

As discussed in Note 8, the NCUA's estimated guarantee payments, guarantor reimbursements, and the
recovery values, if any, of the AMEs' economic residual interests in the NGN Trusts are derived using
an external model that distributes estimated cash flows of the Legacy Assets transferred to the NGN
Trusts in the priority of payments pursuant to the governing documents of each NGN Trust. The
estimated cash flows incorporate the NCUA's assumptions about discount rates.

The estimated cash flows of the Legacy Assets transferred to the NGN Trusts are also derived from the
external model that incorporates the NCUA's expectations and assumptions about the estimated cash
flows from the collateral underlying the Legacy Assets and the priority of payments and estimated cash
flows of the Legacy Assets pursuant to the governing documents for the respective Legacy Assets.

The external model produces estimated cash flows of collateral underlying the Legacy Assets by
incorporating the NCUA's expectations and assumptions about prepayments, defaults and loss severity
of the collateral consisting of residential and commercial mortgages and other assets. Assumptions
about prepayments, defaults and loss severity are developed based on the characteristics and historical
performance of the collateral, as well as assumptions about macroeconomic variables such as
unemployment rate and housing prices, among other factors.

While certain parts of the credit market have seen recent improvements, the performance of asset- and
mortgage-backed securities, such as the Legacy Assets, remains uncertain. The longer-term outlook for
borrower and loan performance is uncertain. Uncertainty around housing prices, interest and
unemployment rates, legal and regulatory actions, and the relationship of these factors to prepayment,
loss severity, default and delinquency rates will likely change over time. Legacy Asset performance
continues to be challenging to predict, and the external model used to derive the expected losses to the
TCCUSF from the guarantee of the NGNs is sensitive to assumptions made about Legacy Asset
performance. For example, changing the assumptions for reasonably possible variations in certain
macroeconomic factors such as a decline in housing prices from its most recent peak in the external
model would have resulted in the NCUA's expected losses, net of estimated recoveries in the form of
guarantor reimbursements and the economic residual interests in the NGN Trusts (but exclusive of the
estimated guarantee fees for the remaining term of the NGNs) associated with 13 re-securitization
transactions, to be zero under one scenario, and approximately $189.8 million and $1.3 billion in
another scenario, as compared to no expected liability for losses on the NGN guarantees recognized on
the TCCUSF’s Balance Sheet as of December 31, 2012 and 2011, respectively.

The estimates of the NCUA's guarantee payments under the NGNs require significant judgment and
will change over time. Forecasting borrower behavior and changes in the macroeconomic environment
is inherently difficult. Historical trends are not indicative of future performance. Even under so-called
normal conditions, leading economic experts have great difficulty predicting economic conditions with
any degree of certainty. The assumptions used to estimate the cash flows of the NGNs, Legacy Assets
underlying the NGNs, and collateral underlying the Legacy Assets will require continued calibration
and refinement.




                                                      34
